 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL


    ECONOMIC OPPORTUNITIES
 DEVELOPMENT CORPORATION OF
 ATASCOSA, KARNES, AND WILSON
COUNTIES’ FINANCIAL MANAGEMENT
   PRACTICES AND SYSTEMS DID
   NOT ALWAYS MEET FEDERAL
         REQUIREMENTS

   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                     Patricia Wheeler
                                                Regional Inspector General

                                                       September 2012
                                                        A-06-11-00034
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                 EXECUTIVE SUMMARY

BACKGROUND

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major objectives of the Head Start program are to promote
school readiness and to enhance the social and cognitive development of low-income children by
providing educational, health, nutritional, and social services.

Within the U.S. Department of Health and Human Services (HHS), the Administration for
Children and Families, Office of Head Start (OHS), administers the Head Start program. In
fiscal year (FY) 2010, Congress appropriated $7.2 billion to fund Head Start’s regular
operations.

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
provided an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds were intended for activities such as expanding enrollment, funding cost-of-living wage
increases for employees of Head Start grantees, upgrading centers and classrooms, and bolstering
training and technical assistance.

Economic Opportunities Development Corporation of Atascosa, Karnes, and Wilson Counties
(EODC), a nonprofit agency, operates a Head Start program that serves 3- to 5-year-old children
and their families at various locations in the three Texas counties. EODC is funded primarily
through Head Start grants. During EODC’s FY 2010 (December 1, 2009, through November 30,
2010), OHS provided Head Start grant funds to EODC totaling $2,569,020. On June 30, 2009,
OHS provided EODC $173,944 in Recovery Act funding. EODC also received funds from the
U.S. Department of Agriculture.

OBJECTIVE

Our objective was to determine whether EODC’s financial management practices and systems
met Federal requirements.

SUMMARY OF FINDINGS

EODC’s financial management practices and systems did not always meet Federal requirements.
Specifically, EODC:

       claimed $352,487 in construction costs that did not comply with the provisions approved
       in its applications for Federal construction assistance;

       claimed $19,285 for fuel expenditures that were not reasonable;

       claimed $309 for an ineligible salary payment that was not paid in accordance with
       Federal requirements and personnel policies;




                                               i
      claimed a total of $25,769 for an inadequately documented salary increase that was
      potentially unreasonable;

      claimed $18,004 in expenditures for construction, maintenance, and repairs that were
      potentially unsupported;

      did not pay salaries and payments for unused vacation in accordance with Federal
      requirements and personnel policies;

      did not segregate duties related to bank reconciliations and inventory procedures and
      ensure that only authorized personnel had access to the accounting system;

      did not enter transactions into the accounting system in a timely manner;

      did not close out the automated accounting system at the end of each year;

      did not safeguard unused checks;

      did not have written policies that adequately addressed conflicts of interest and did not
      have any written policies that addressed the procurement of consultants;

      did not maintain accurate property record cards on all assets;

      did not properly record the disposition of assets;

      did not properly identify equipment;

      did not properly value donated space, land, and buildings in claiming non-Federal share;
      and

      did not adequately document in-kind non-Federal share for volunteer services and ensure
      that they were allowable.

RECOMMENDATIONS

We recommend that OHS:

      require EODC to refund $372,081 in unallowable costs related to its Head Start grant;

      work with EODC to determine whether the inadequately documented salary increase
      totaling $25,769 was reasonable and refund any portion determined to be unreasonable;

      work with EODC to determine whether expenditures for construction, maintenance, and
      repair payments totaling $18,004 were supported by adequate documentation;




                                                ii
       impose special award conditions on EODC to ensure that its financial system provides
       accurate, current, and complete disclosure of financial results and records that identify the
       source and application of funds for HHS-sponsored activities;

       impose special award conditions on EODC to ensure that it has effective control over and
       accountability for all funds, property, and other assets and that it adequately safeguards
       all assets and ensures that they are used solely for authorized purposes; and

       ensure that EODC:

           o claims Head Start expenditures that are allowable,

           o complies with the approved provisions in applications for Federal assistance for
             construction,

           o monitors the use of credit cards for fuel purchases and increases oversight of
             credit card use,

           o adequately documents salary increases and follows personnel policies when
             compensating employees,

           o follows Federal requirements in paying salaries and vacation pay,

           o segregates duties so that individuals who maintain property records are not the
             same individuals who perform the physical inventory,

           o develops written policies and procedures that adequately address conflicts of
             interest and written policies that address the procurement of consultants,

           o properly values non-Federal share for donated space, land, and buildings, and

           o adequately documents allowable in-kind non-Federal share for volunteer services.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, EODC did not agree with any of our findings. After we
issued our draft report, EODC provided sworn affidavits to support the expenditures for
construction, maintenance, and repairs. After reviewing EODC’s comments and additional
information, we revised the report to set aside those expenditures for OHS to determine whether
any were allowable. In addition, we modified our finding on conflicts of interest to acknowledge
that EODC had policies and procedures on conflicts of interest but that they were not adequate.
Nothing in EODC’s comments caused us to change any of our other findings or
recommendations. EODC’s comments are included in their entirety as Appendix A.




                                                iii
OFFICE OF HEAD START COMMENTS

In its written comments on our draft report, OHS concurred with all of our recommendations.
However, OHS stated that its concurrence with the recommendation to refund $372, 081 in
unallowable costs was contingent on its determination that EODC failed to utilize $352,487 for
construction as intended. OHS agreed that EODC should refund the remaining $19,594. OHS’s
comments are included in their entirety as Appendix B.




                                              iv
                                                  TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Head Start Program ............................................................................................1
              Economic Opportunities Development Corporation of Atascosa, Karnes,
               and Wilson Counties ........................................................................................1
              Federal Requirements for Grantees ...................................................................1
              Special Award Conditions .................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
               Objective ............................................................................................................2
               Scope ..................................................................................................................2
               Methodology ......................................................................................................2

FINDINGS AND RECOMMENDATIONS ..........................................................................3

          UNALLOWABLE CONSTRUCTION COSTS............................................................4

          UNSUPPORTED OR UNREASONABLE DISBURSEMENTS .................................5
               Federal Requirements ........................................................................................5
               Unsupported or Unreasonable Fuel Purchases ..................................................5
               Unsupported Construction, Maintenance, and Repairs......................................6

          SALARIES ....................................................................................................................6
               Federal Requirements ........................................................................................6
               Ineligible Salary Payment ..................................................................................7
               Inadequately Documented Salary ......................................................................7

          PREPAID SALARIES AND VACATION ...................................................................7
               Federal Requirements ........................................................................................7
               Prepaid Salaries ..................................................................................................8
               Employee Advances...........................................................................................8
               Prepaid Vacation Time ......................................................................................9

          INTERNAL CONTROLS .............................................................................................9
               Federal Requirements ........................................................................................9
               Inadequate Segregation of Duties ......................................................................9
               Untimely and Incomplete Disclosure in the Financial Management
                System ............................................................................................................10
               Checks Not Safeguarded ..................................................................................10

          PROCUREMENT POLICIES AND PROCEDURES ................................................10



                                                                     v
PROPERTY AND EQUIPMENT RECORDS ............................................................11
     Property Record Cards Did Not Agree With Schedule of Fixed Assets..........11
     Property Disposition Was Not Properly Recorded ..........................................12
     Equipment Was Not Properly Identified..........................................................12

NON-FEDERAL SHARE ...........................................................................................12
     Improperly Valued Donated Space, Land, and Buildings ...............................13
     Inadequately Documented Volunteer Services ................................................13

RECOMMENDATIONS .............................................................................................13

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL
 RESPONSE................................................................................................................14
     Claimed Construction Costs That Did Not Comply With the Provisions
      Approved in Its Applications for Federal Construction Assistance...............14
     Claimed Expenditures That Were Not Reasonable or Supported by Source
      Documentation for Construction, Maintenance, Repairs, and Fuel ...............16
     Claimed Ineligible Salary Payment That Was Not Paid in Accordance
      With Federal Requirements and Personnel Policies ......................................17
     Claimed Inadequately Documented Salary Increase That Was Potentially
      Unreasonable..................................................................................................17
     Did Not Pay Salaries and Payments for Unused Vacation in Accordance
      With Federal Requirements and Personnel Policies ......................................18
     Did Not Segregate Duties Related to Bank Reconciliations and Inventory
      Procedures and Ensure That Only Authorized Personnel Had Access to the
      Accounting System ........................................................................................19
     Did Not Enter Transactions Into the Accounting System in a
      Timely Manner...............................................................................................19
     Did Not Close Out the Automated Accounting System at the
      End of Each Year ...........................................................................................20
     Did Not Safeguard Unused Checks .................................................................20
     Did Not Have Written Policies That Adequately Addressed Conflicts of
      Interest and Procurement of Consultants .......................................................21
     Did Not Maintain Accurate Property Record Cards on All Assets .................21
     Did Not Properly Record the Disposition of Assets ........................................22
     Did Not Properly Identify Equipment..............................................................22
     Did Not Properly Value Donated Space, Land, and Buildings in Claiming
      Non-Federal Share .........................................................................................23
     Did Not Adequately Document In-Kind Non-Federal Share for Volunteer
      Services and Ensure That They Were Allowable ..........................................23

OFFICE OF HEAD START COMMENTS ................................................................23




                                                         vi
APPENDIXES

    A: AUDITEE COMMENTS

    B: OFFICE OF HEAD START COMMENTS




                          vii
                                      INTRODUCTION

BACKGROUND

Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major objectives of the Head Start program are to promote
school readiness and to enhance the social and cognitive development of low-income children by
providing educational, health, nutritional, and social services.

Within the U.S. Department of Health and Human Services (HHS), the Administration for
Children and Families (ACF), Office of Head Start (OHS), administers the Head Start program.
In fiscal year (FY) 2010, Congress appropriated $7.2 billion to fund Head Start’s regular
operations.

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
provided an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds were intended for activities such as expanding enrollment, funding cost-of-living wage
increases for employees of Head Start grantees, upgrading centers and classrooms, and bolstering
training and technical assistance.

Economic Opportunities Development Corporation of Atascosa, Karnes,
and Wilson Counties

Economic Opportunities Development Corporation of Atascosa, Karnes, and Wilson Counties
(EODC), a nonprofit agency, operates a Head Start program that serves 3- to 5-year-old children
and their families at various locations in the three Texas counties. EODC is funded primarily
through Head Start grants. During EODC’s FY 2010 (December 1, 2009, through November 30,
2010), OHS provided Head Start grant funds to EODC totaling $2,569,020. On June 30, 2009,
OHS provided EODC $173,944 in Recovery Act funding. EODC also received funds from the
U.S. Department of Agriculture.

Federal Requirements for Grantees

Federal regulations (45 CFR part 74) establish uniform administrative requirements governing
HHS grants and agreements awarded to nonprofit organizations. As a nonprofit organization in
receipt of Federal funds, EODC must comply with the cost principles at 2 CFR part 230, Cost
Principles for Non-Profit Organizations (Office of Management and Budget Circular A-122),
incorporated by reference at 45 CFR § 74.27(a). These cost principles specify the criteria that
costs must meet to be allowable. The HHS awarding agency may include additional
requirements that are considered necessary to attain the award’s objectives.

To help ensure that Federal requirements are met, grantees must maintain financial management
systems in accordance with 45 CFR § 74.21. These systems must provide for accurate, current,
and complete disclosure of the financial results of each HHS-sponsored project or program (45
CFR § 74.21(b)(1)) and must ensure that accounting records are supported by source


                                               1
documentation (45 CFR § 74.21(b)(7)). Grantees also must have written procedures for
determining the allowability of expenditures in accordance with applicable Federal cost
principles and the terms and conditions of the award (45 CFR § 74.21(b)(6)).

Section 642(c)(1)(E) of the Head Start Act states that the Head Start agency’s governing body
shall “be responsible for ensuring compliance with Federal laws (including regulations) ….”

Special Award Conditions

Pursuant to 45 CFR § 74.14, OHS may impose additional requirements if a grant recipient has a
history of poor performance, is not financially stable, does not have a financial management
system that meets Federal standards, has not conformed to the terms and conditions of a previous
award, or is not otherwise responsible.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether EODC’s financial management practices and systems
met Federal requirements.

Scope

We performed this review based on a request from OHS. We did not perform an overall
assessment of EODC’s internal control structure. We reviewed only those internal controls
directly related to our audit objective. Our review period was EODC’s FY 2010.

We performed our fieldwork at EODC’s administrative office in Kenedy, Texas.

Methodology

To accomplish our objective, we:

           reviewed relevant Federal laws, regulations, and guidance;

           reviewed EODC’s accounting, procurement, personnel, and financial reporting
           procedures and interviewed EODC officials to gain an understanding of those
           procedures;

           reviewed grant award documentation to determine EODC’s Head Start and Recovery Act
           funding;

           reviewed EODC’s audited financial statements for FYs 2007 through 2009, as well as
           unaudited financial statements for FY 2010;1

1
    The financial statements for FY 2010 had not been audited at the time of our review.


                                                           2
       reviewed EODC’s general ledger, timesheets, invoices, bank reconciliations, and other
       supporting documentation for costs charged to Head Start grants;

       reviewed EODC’s property records and performed a physical inventory of selected items
       at one facility;

       reviewed documentation supporting EODC’s non-Federal share for FY 2010;

       reviewed the composition of EODC’s Head Start board of directors and board meeting
       minutes; and

       met with ACF officials to discuss our audit findings.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

EODC’s financial management practices and systems did not always meet Federal requirements.
Specifically, EODC:

       claimed $352,487 in construction costs that did not comply with the provisions approved
       in its applications for Federal construction assistance;

       claimed $19,285 for fuel expenditures that were not reasonable;

       claimed $309 for an ineligible salary payment that was not paid in accordance with
       Federal requirements and personnel policies;

       claimed a total of $25,769 for an inadequately documented salary increase that was
       potentially unreasonable;

       claimed $18,004 in expenditures for construction, maintenance, and repairs that were
       potentially unsupported;

       did not pay salaries and payments for unused vacation in accordance with Federal
       requirements and personnel policies;

       did not segregate duties related to bank reconciliations and inventory procedures and
       ensure that only authorized personnel had access to the accounting system;

       did not enter transactions into the accounting system in a timely manner;



                                               3
        did not close out the automated accounting system at the end of each year;

        did not safeguard unused checks;

        did not have written policies that adequately addressed conflicts of interest and did not
        have any written policies that addressed the procurement of consultants;

        did not maintain accurate property record cards on all assets;

        did not properly record the disposition of assets;

        did not properly identify equipment;

        did not properly value donated space, land, and buildings in claiming non-Federal share;
        and

        did not adequately document in-kind non-Federal share for volunteer services and ensure
        that they were allowable.

UNALLOWABLE CONSTRUCTION COSTS

Pursuant to 45 CFR § 1309.52(b), all contracts for construction or major renovation of a facility
to be paid for in whole or in part with Head Start funds require the prior, written approval of the
responsible HHS official and should be paid on a lump-sum, fixed-price basis.

According to the terms of EODC’s Financial Assistance Awards for purchasing new facilities,
the facilities and construction funds must be used as described in the grantee’s application. Prior
written approval from the ACF Regional Office is required before the grantee can use the funds
for any other purpose.

EODC claimed $352,487 in construction costs for two facilities. For the first facility, EODC
requested $908,500 from OHS for the estimated costs of purchasing land ($80,000) and building
a Head Start center ($828,500). OHS agreed to fund $227,125 of the total estimated costs if
EODC funded the remaining $681,375. The 2011 county district appraisal valued the center at
$108,310 (13 percent of the estimated cost stated in the OHS-approved application). The
appraised value was also less than the share of construction costs that OHS agreed to pay.2 In
addition, rather than purchasing land as specified in the Financial Assistance Award, EODC
entered into a lease with the city at an alternative location for $1 per year and, therefore, did not
need the $80,000 that OHS awarded for the land purchase.

For the second facility, EODC requested $501,450 from OHS for the estimated costs of
purchasing land ($15,000) and building a Head Start center ($486,450). OHS agreed to fund
$125,362 of the total estimated costs if EODC funded the remaining $376,088. The 2011 county

2
 We compared the OHS-approved costs of construction to the appraised value rather than actual costs because we
could not determine actual costs.


                                                       4
district appraisal valued the center at $86,770 and the land at $9,500. The appraised values of
the center and the land were 19 percent of the estimated cost stated in the OHS-approved
application. The appraised values were also less than the share of costs that OHS agreed to pay.
Because EODC did not construct these two Head Start centers and fund its share of the land and
building costs according to the OHS-approved applications, EODC was not entitled to the
$352,487 in Federal funds awarded.

UNSUPPORTED OR UNREASONABLE DISBURSEMENTS

Federal Requirements

Pursuant to 45 CFR § 74.21(b), grantees are required to maintain financial management systems
that have accounting records that are supported by source documentation. Grantees must have
effective control over and accountability for all funds, property, and other assets. Recipients
should adequately safeguard all such assets and ensure that they are used solely for authorized
purposes.

The cost principles at 2 CFR part 230, Appendix A, section A.2, state that to be allowable under
an award, costs must be reasonable and adequately documented.

The cost principles at 2 CFR part 230, Appendix A, section A.3, state that a cost is reasonable if,
in its nature or amount, it does not exceed that which would be incurred by a prudent person
under the circumstances prevailing at the time the decision was made to incur the costs.

The cost principles at 2 CFR part 230, Appendix B, section 8.h, state that the “portion of the cost
of organization-furnished automobiles that relates to personal use by employees (including
transportation to and from work) is unallowable as fringe benefit or indirect costs regardless of
whether the cost is reported as taxable income to the employees. These costs are allowable as
direct costs to sponsored award when necessary for the performance of the sponsored award and
approved by awarding agencies.”

The HHS Grants Policy Statement (HHS GPS)3 states:

        HHS requires recipients to establish safeguards to prevent employees, consultants,
        members of governing bodies, and others who may be involved in grant-
        supported activities from using their positions for purposes that are, or give the
        appearance of being, motivated by a desire for private financial gain for
        themselves or others, such as those with whom they have family, business, or
        other ties. These safeguards must be reflected in written standards of conduct.

Unsupported or Unreasonable Fuel Purchases

EODC’s written procedures state that vehicles owned by EODC should be used only for Head
Start purposes, that a travel log should be kept in each vehicle and maintained by staff who drive

3
  The HHS GPS states the general terms and conditions applicable to HHS discretionary grants and is applicable by
incorporation into the terms and conditions of the individual award.


                                                        5
these vehicles for agency business. In addition, policies on local travel state that, if authorized,
an employee may claim mileage reimbursement for use of a personal vehicle by preparing a
local-mileage travel report. This report must be approved and signed by a supervisor.

EODC claimed $19,285 in unreasonable and unsupported expenditures for fuel.

        EODC claimed $17,982 in purchases made on the Head Start director’s assigned credit
        cards (from October 2009 through October 2010). We calculated that the Head Start
        director would have needed to drive more than 80,000 miles per year (or 160,000 miles
        over a 2-year period) to accumulate $17,982 in fuel charges.4 However, using the
        odometer readings indicated on the purchase and sale invoices for the agency-owned
        vehicle, we determined that the Head Start director drove the vehicle 69,174 miles over a
        2-year period.

        EODC claimed $1,303 in additional fuel purchases made with the fiscal/office manager’s
        assigned credit card (November 2009 through October 2010) by the fiscal/office
        manager, who said that she drove her own vehicle for Head Start business. However, she
        informed us that she did not prepare travel logs, and EODC officials could not provide
        any other support for these expenditures.

Unsupported Construction, Maintenance, and Repairs

EODC’s written procedures require that supporting documentation be kept with each check stub.
EODC claimed $18,004 in unsupported payments to individuals for construction, maintenance,
and repairs. Of this amount, EODC reimbursed $14,794 to the Head Start director for cash
payments he said he had made to individuals (e.g., a $1,200 reimbursement for maintenance) and
a family member (e.g., a reimbursement for $400 cash paid for use of a truck and trailer and help
moving storage buildings) using his own money. EODC reimbursed the fiscal/office manager
$1,035 for cash payments she said she had made to family members for grounds maintenance.
Also, EODC used checks to pay family members an additional $2,175 for grounds maintenance
during our review period.

EODC provided sworn affidavits for the payments made to the individuals. Because most of the
affidavits did not reconcile to the entries listed in the Head Start director’s notebook, we are
unable to rely on these affidavits as supporting documentation for the cash payments for
construction, maintenance, and repairs. Therefore, we are setting aside the $18,004 for further
review by OHS.

SALARIES

Federal Requirements

The cost principles at 2 CFR part 230, Appendix A, section A.2, state that to be allowable under
an award, costs must be adequately documented.
4
 We used a mileage calculation for the vehicle of 14 miles per gallon at $3 a gallon. These are conservative
estimates based on the vehicle type and regional gas prices at the time the fuel was used.


                                                         6
The cost principles at 2 CFR part 230, Appendix B, section 8.c.2, state that to be reasonable,
compensation for employees in organizations predominantly engaged in Federally sponsored
activities should be comparable to that paid for similar work in the labor markets in which the
organization competes for the kind of employees involved. Similarly, section 653 of the Head
Start Act (42 U.S.C. § 9848) provides that Head Start employees may not receive compensation:
“... in excess of the average rate of compensation paid in the area where the program is carried
out to a substantial number of persons providing substantially comparable services, or in excess
of the average rate of compensation paid to a substantial number of the persons providing
substantially comparable services in the area of the person’s immediately preceding employment
....”

The cost principles at 2 CFR part 230, Appendix B, section 8.b.1, state that the costs of salaries,
fringe benefits, and cost-of-living differentials are allowable to the extent that total compensation
to individual employees is reasonable for the services rendered and conforms to the established
policy of the organization consistently applied to both Federal and non-Federal activities.

Ineligible Salary Payment

EODC claimed $309 for an unallowable payment it made to a “full-year, full-day” classroom
aide for holiday hours. EODC’s personnel policies state that employees who hold the position
“full-year, full-day” classroom aide are not eligible for any benefits except those which EODC is
required to provide. EODC is not required to pay these types of employees for holiday hours.

Inadequately Documented Salary

EODC claimed an inadequately documented salary increase for the fiscal/office manager totaling
$25,769. This amount is the difference between her previous salary and her new salary.

According to the board meeting minutes, the board approved the salary increase based on
additional responsibilities and on a wage comparability study. However, EODC did not provide
the wage comparability study to us; therefore, we could not determine how EODC used it to
determine the amount of the monthly salary increase. In addition, when we compared the new
duties and responsibilities with the previous ones, the only difference was a new duty to act as
assistant Head Start director/contact person if the Head Start director was unavailable. Because
we did not receive a wage comparability study and the change in responsibilities was minimal,
we could not determine whether the increase was reasonable. Therefore, we are setting aside the
$25,769 for further review by OHS.

PREPAID SALARIES AND VACATION

Federal Requirements

The cost principles at 2 CFR part 230, Appendix A, section A.3, state:

       A cost is reasonable if, in its nature or amount, it does not exceed that which
       would be incurred by a prudent person under the circumstances prevailing at the



                                                 7
       time the decision was made to incur the costs.… In determining the
       reasonableness of a given cost, consideration shall be given to: (a) Whether the
       cost is of a type generally recognized as ordinary and necessary for the operation
       of the organization or the performance of the award…. (c) Whether the
       individuals concerned acted with prudence in circumstances, considering their
       responsibilities to the organization, its members, employees, and clients, the
       public at large, and the Federal Government.

The cost principles at 2 CFR part 230, Appendix B, section 8.g.1, state that fringe benefits in the
form of regular compensation paid to employees during periods of authorized absences from the
job, such as vacation leave, sick leave, military leave, and the like, are allowable, provided such
costs are absorbed by all organization activities in proportion to the relative amount of time or
effort actually devoted to each.

The cost principles at 2 CFR part 230, Appendix B, section 8.m.2, state:

       Reports reflecting the distribution of activity of each employee must be
       maintained for all staff members (professionals and nonprofessionals) whose
       compensation is charged, in whole or in part, directly to awards.… Reports
       maintained by non-profit organizations to satisfy these requirements must reflect
       an after-the-fact determination of the actual activity of each employee. Budget
       estimates (i.e., estimates determined before the services are performed) do not
       qualify as support for charges to awards.

The cost principles at 2 CFR part 230, Appendix B, section 8.b.1, state that the costs of salaries,
fringe benefits, and cost-of-living differentials are allowable to the extent that total compensation
to individual employees is reasonable for the services rendered and conforms to the established
policy of the organization consistently applied to both Federal and non-Federal activities.

Prepaid Salaries

EODC prepaid the Head Start director his last paycheck of FY 2010 ($6,108) over the 6-month
period before it was earned and recorded the payments as salary expenses. Prepaying the Head
Start director for his last paycheck before it was earned was unreasonable because the
prepayment was not (1) ordinary and necessary for the operation of the organization or
performance of the award and (2) prudent, in this instance, because the Head Start director could
have terminated his employment with EODC, and EODC might not have been able to recover
the prepaid salaries.

Employee Advances

EODC’s policies allowed employees to receive what EODC officials referred to as “payroll
advances” on their salaries. For example, during FY 2010, the Head Start director received and
paid back $7,825 in advances, and two other employees received $1,500 in advances. In
addition, EODC’s policies did not address a timetable for repaying advances, and EODC did not
take regular deductions from the employees’ paychecks for these advances. These actions were



                                                 8
not prudent under the circumstances because, if an employee had received advances on salaries
and stopped employment, EODC might not have been able to recover the advances.

Prepaid Vacation Time

EODC’s vacation policy states that employees who are scheduled to work 12 months in the
administrative office will receive paid vacation. Administrative office employees may sell back
all or part of their accrued vacation if they are unable to take the time because they need to
maintain the stability of critical functions of EODC.

EODC did not follow either Federal requirements or its written personnel policies for selling
back vacation time. EODC paid the Head Start director for his vacation time before he earned it.
Prepaying vacation time was not prudent because, if an employee who had received
compensation for unearned leave stopped employment, EODC may not have been able to
recover the vacation time pay.

Two other employees sold back their vacation time each month as they earned it. In most cases,
the Head Start director could not have determined whether he and his staff would have been able
to use the vacation time before they sold the time back.5

INTERNAL CONTROLS

Federal Requirements

Pursuant to 45 CFR § 74.21(b), grantees are required to maintain financial management systems
that provide accurate, current, and complete disclosure of the financial results of each federally
sponsored project or program in accordance with the reporting requirements set forth in 45 CFR
§ 74.52. In addition, grantees must maintain accounting records that are supported by source
documentation and have effective control over and accountability for all funds, property, and
other assets. Recipients also should adequately safeguard all such assets and ensure that they are
used solely for authorized purposes.

Pursuant to 45 CFR § 1304.50(g)(2): “Grantee and delegate agencies must ensure that
appropriate internal controls are established and implemented to safeguard Federal funds in
accordance with 45 CFR § 1301.13.”

Inadequate Segregation of Duties

EODC did not have adequate segregation of duties. EODC’s written procedures state that the
Head Start director should sign checks, and the accounting clerk should forward them to a board
member for a cosignature. However, in September 2000, the EODC Head Start board granted
the fiscal/office manager the authority to sign checks when none of the three board members
authorized to sign checks could be contacted. EODC could not provide evidence that a board
member had signed a check since September 2000. The fiscal/office manager reconciled the
5
    EODC employees historically have sold back all of their vacation time.



                                                           9
bank account and could sign checks. Permitting the same individual responsible for the bank
reconciliation to sign checks provides that individual with an increased opportunity to divert
funds.

In addition, the fiscal/office manager maintained the property record cards, which are used to
maintain the inventory of assets, and performed physical inventories. Inventories should be
completed by individuals who are not also responsible for maintaining the inventory log.
However, the Procurement and Property Management Policies appendix in the Accounting
Policies and Procedures Manual allows the fiscal/office manager to maintain inventory records
and perform biannual physical inventories.

EODC’s written procedures state that “the only people having access to the accounting system
are: 1) the fiscal manager, 2) the accounting clerk, and 3) the general office clerk.” Even though
written procedures stated that the Head Start director should not have access to the accounting
system, interviews with staff indicated that the Head Start director had access to the accounting
system using the server computer and an administrative password. Access to the accounting
system gave the Head Start director the ability to circumvent safeguards that were in place.

Untimely and Incomplete Disclosure in the Financial Management System

EODC’s written procedures state that transactions should be identifiable and recorded in the
accounting system in a timely manner. EODC did not enter transactions into the automated
accounting system in a timely manner. The fiscal/office manager entered transactions manually
into a ledger and then transferred the batch totals into EODC’s automated accounting system at
the end of each month. Thus, individual transactions were not identifiable in the automated
accounting system, and EODC was unable to give up-to-date financial information to the Head
Start board for its meetings. In addition, EODC did not close the accounts in the automated
system at the end of the year. Because of these conditions, EODC was not able to provide
current and complete disclosure of financial results.

Checks Not Safeguarded

EODC’s written procedures state that unused checks should be kept in locked storage. During
our walkthrough at EODC, we found unsecure, unused checks. Such checks could have been
accessed by unauthorized individuals.

PROCUREMENT POLICIES AND PROCEDURES

Regulations (45 CFR § 74.43) state: “Awards shall be made to the bidder or offeror whose bid
or offer is responsive to the solicitation and is most advantageous to the recipient, price, quality
and other factors considered.” Further, 45 CFR § 74.44(a) states that grantees of Federal awards
must implement written procurement procedures for solicitation of goods and services. The
HHS GPS states:

       HHS requires recipients to establish safeguards to prevent employees, consultants,
       members of governing bodies, and others who may be involved in grant-



                                                 10
           supported activities from using their positions for purposes that are, or give the
           appearance of being, motivated by a desire for private financial gain for
           themselves or others, such as those with whom they have family, business, or
           other ties. These safeguards must be reflected in written standards of conduct.

Exhibit 4 of the HHS GPS, page II-32, requires grantees to have written policies for the use of
consultants.

The cost principles at 2 CFR part 230, Appendix B, section 37.b, state that in determining the
allowability of consultants’ costs, the following factors, among others, are relevant: (1) the
nature and scope of services provided in relation to the service required and (2) the qualifications
of the individual or concern rendering the service and the customary fees charged, especially on
non-Federal awards.

EODC’s written policies and procedures did not adequately address conflicts of interest. In
addition, EODC did not have a written policy regarding the use of consultants. Specifically,
EODC did not have procedures for (1) selecting the most qualified individual available, (2)
determining the nature and extent of the services to be provided, and (3) ensuring that the fees
are reasonable in accordance with the cost principles at 2 CFR part 230, Appendix B, section 37.

PROPERTY AND EQUIPMENT RECORDS

Pursuant to 45 CFR § 74.21(b), grantees must maintain accounting records that are supported by
source documentation and have effective control over and accountability for all funds, property,
and other assets.

Pursuant to 45 CFR § 74.34(f), grantees are required to maintain accurate records for equipment
acquired with Federal funds. The records should include identifying information, including
identification numbers, such as model or serial numbers; acquisition dates and costs; and
ultimate disposition data.

EODC’s written procedures describe its process for reconciling physical inventory with written
inventory records. Despite these written procedures, we found that EODC’s:

            property record cards did not agree with the schedule of fixed assets,

            property did not have its disposition properly recorded, and

            equipment was not properly identified to show ownership.

Property Record Cards Did Not Agree With Schedule of Fixed Assets

EODC’s property record cards did not agree with the schedule of fixed assets.6 For example, a
property record card showed that a vehicle was traded in on November 30, 2008; however, it
6
    Property record cards describe the property, list the purchase date, and give the original value of the property.



                                                             11
remained on the November 30, 2009, schedule of fixed assets. In another instance, EODC
purchased a vehicle on November 26, 2008, and sold it without recording the transactions on a
property record card or the schedule of fixed assets.7

Property Disposition Was Not Properly Recorded

EODC did not properly record the disposition of assets. For example, a hand-written note on the
property record card showed that a vehicle was removed from inventory on November 30, 2009,
because it was not repairable. However, it was still listed on the schedule of fixed assets for
November 30, 2009. The property record card had no information regarding where the vehicle
was discarded or any salvage value.

In addition, discarded copiers with a depreciable value remained on the schedule of fixed assets.
Also, EODC did not have a property record card for a portable building that was recorded on the
schedule of fixed assets at $10,750. EODC officials were unable to ascertain the disposition of
the portable building.

Equipment Was Not Properly Identified

EODC did not properly identify equipment. For example, the equipment at the Head Start center
we visited was not tagged or identified as equipment purchased with EODC or Head Start funds.

NON-FEDERAL SHARE

Pursuant to 45 CFR § 1301.20, grantees are to provide 20 percent of the total cost of the program
through non-Federal share unless an exception applies. Pursuant to 45 CFR § 74.23(a), matching
contributions, to be acceptable, must be necessary and reasonable for properly and efficiently
accomplishing program objectives and be verifiable from the recipient’s records.

Pursuant to 45 CFR § 74.23(h)(1), the value of donated land and buildings at the time of
donation to a recipient should not exceed their fair market value as established by an independent
appraiser (e.g., certified real property appraiser or General Services Administration
representative) and certified by a responsible official of the recipient.

Pursuant to 45 CFR § 74.23(h)(3), the value of donated space should not exceed the fair rental
value of comparable space as established by an independent appraisal of comparable space and
facilities in a privately owned building in the same locality.

Pursuant to 45 CFR § 74.23(i)(2), the basis for determining the valuation for personal services,
material, equipment, buildings, and land must be documented.

OHS required EODC to provide $642,255 in non-Federal share; however, EODC reported
$882,445. We were unable to determine whether the amount reported for donated space, land,


7
 This was the agency-owned vehicle used by the Head Start director and referenced in the “Unsupported or
Unreasonable Fuel Purchases” section of this report.


                                                       12
and buildings was correctly valued because EODC did not have independent appraisals
performed. In addition, EODC did not adequately document volunteer services.

Improperly Valued Donated Space, Land, and Buildings

EODC claimed $85,848 in non-Federal share for donated space, land, and buildings. Regarding
donated space, EODC did not have the fair rental value of comparable space determined by an
independent appraiser. EODC determined the value of the non-Federal share by multiplying the
county’s appraised tax value by 25 percent and deducting any rent paid on each space, if
applicable. An EODC official stated that EODC was unable to have space independently
appraised because appraisal costs were too expensive.

Regarding donated land and buildings, EODC did not have the fair market value determined by
an independent appraiser at the time of the donation, and an EODC official did not certify the
fair market value. EODC determined the value of the non-Federal share by multiplying the
county’s appraised tax value by 25 percent. An EODC official stated that EODC was unable to
have the land and buildings independently appraised because appraisal costs were too expensive.

Inadequately Documented Volunteer Services

EODC reported $795,228 in in-kind non-Federal share for volunteer services. EODC did not
adequately document volunteer services on monthly timecards EODC provided to volunteers to
list their activities. Some of the timecards had hours for which there were no documented
activities. Other timecards included activities that were not allowable program costs (e.g., eating
breakfast with children and fundraising activities).

RECOMMENDATIONS

We recommend that OHS:

       require EODC to refund $372,081 in unallowable costs related to its Head Start grant;

       work with EODC to determine whether the inadequately documented salary increase
       totaling $25,769 was reasonable and refund any portion determined to be unreasonable;

       work with EODC to determine whether expenditures for construction, maintenance, and
       repair payments totaling $18,004 were supported by adequate documentation;

       impose special award conditions on EODC to ensure that its financial system provides
       accurate, current, and complete disclosure of financial results and records that identify the
       source and application of funds for HHS-sponsored activities;

       impose special award conditions on EODC to ensure that it has effective control over and
       accountability for all funds, property, and other assets and that it adequately safeguards
       all assets and ensures that they are used solely for authorized purposes; and



                                                13
       ensure that EODC:

           o claims Head Start expenditures that are allowable,

           o complies with the approved provisions in applications for Federal assistance for
             construction,

           o monitors the use of credit cards for fuel purchases and increases oversight of
             credit card use,

           o adequately documents salary increases and follows personnel policies when
             compensating employees,

           o follows Federal requirements in paying salaries and vacation pay,

           o segregates duties so that individuals who maintain property records are not the
             same individuals who perform the physical inventory,

           o develops written policies and procedures that adequately address conflicts of
             interest and written policies that address the procurement of consultants,

           o properly values non-Federal share for donated space, land, and buildings, and

           o adequately documents allowable in-kind non-Federal share for volunteer services.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, EODC did not agree with any of our findings. After we
issued our draft report, EODC provided sworn affidavits to support the expenditures for
construction, maintenance, and repairs. After reviewing EODC’s comments and additional
information, we revised the report to set aside those expenditures for OHS to determine whether
any were allowable. In addition, we modified our finding on conflicts of interest to acknowledge
that EODC had policies and procedures on conflicts of interest but that they were not adequate.
Nothing in EODC’s comments caused us to change any of our other findings or
recommendations. EODC’s comments are summarized below and included in their entirety as
Appendix A.

Claimed Construction Costs That Did Not Comply With the Provisions Approved in Its
Applications for Federal Construction Assistance

Auditee Comments

EODC disagreed with our finding, stating that (1) we misstated the facts surrounding subsequent
amendments to EODC’s application, (2) our conclusions were not consistent with the OHS grant
of funds to EODC, and (3) it was improper for us to have claimed that we could not determine
actual construction costs for the projects because it provided us with documentation.



                                               14
EODC agreed that OHS agreed to fund $227,125 of the total estimated cost to buy land and
construct a Head Start Center in Karnes City if EODC funded the remaining balance. EODC
indicated that it purchased a 50-year lease at a cost of $1 per year for an alternative site because
the originally proposed site was no longer available. EODC stated that we did not look at the
circumstances surrounding the construction project or interview the local program specialist. It
indicated that if we had done so, we would be aware of the “EODC Director’s actions in securing
OHS approving” the alternative construction site and the lease terms for the property. EODC
stated that the HHS program specialist did not indicate that EODC would need to get further
approval from HHS or OHS and that the program specialist conducted an onsite visit and
expressed approval of the project.

EODC stated that the failure to purchase land was not a violation of the Financial Assistance
Award’s (FAA) terms. It further indicated that the estimate for the purchase of the land was only
$80,000 of the total $908,500 project cost; therefore, even if all of the $227,125 in grant funds
had been expressly apportioned for the sole purpose of purchasing the property, the majority of
the FAA grant would still be dedicated to the construction of a facility at the site. EODC said
that our conclusion that OHS awarded $80,000 solely for a land purchase was not supported by
the FAA’s terms. EODC also indicated that it was improper for us to state that EODC should be
required to repay either $80,000 or $227,500 as an unallowable cost on the first facility because
EODC negotiated a reduction in cost.

For the Stockdale facility, EODC indicated that our disapproval was based solely on our
comparison of OHS’s grant amount with the current Karnes County Central Appraisal District’s
appraised value of the property.8 EODC further stated that it was improper to compare the
construction costs of a building in 2006-2007 to the 2011 county appraisal district value to
determine whether OHS funds were properly expended, especially because of the decline in real
estate prices in recent years. EODC stated that its personnel provided us with access to
documentation regarding the original 2007 appraised value of the property, original purchase
price, and original construction costs.

Office of Inspector General Response

We disagree that we misstated the facts surrounding the “subsequent amendments” to EODC’s
application. EODC did not provide documentation of any amendments to the original
applications provided to us by OHS.

We believe that our conclusions were consistent with OHS’s grant to EODC. According to the
OHS-approved FAA, EODC was to pay $681,375 (75 percent) of the construction costs of the
Karnes facility. Correspondence between the Head Start director and the HHS program
specialist indicated that the project would not be fully funded nor 75 percent federally funded as
requested. According to this correspondence, the Federal Government would pay no more than
25 percent of the facility’s cost. EODC did not fund the additional 75 percent of the facility’s
cost and, instead, chose to build the facility with the $227,125 (25 percent) awarded by OHS.



8
    According to our records, the Stockdale appraisals were conducted by the Wilson County Appraisal District.


                                                          15
Negotiating a better contract for land did not constitute paying for 75 percent of the facility.
EODC should have obtained prior, written approval from OHS so that OHS could determine the
new amount that it would fund for the construction costs. In previous correspondence, the Head
Start director indicated that any future changes would be made in writing and approvals sought at
all levels.

For the Stockdale facility, we used the 2011 Wilson County appraised value because EODC did
not provide us with adequate documentation of actual construction costs. The appraisal was the
best current estimate of what the facility was worth because it appraised at $96,270. The 2007
appraisal valued the Stockdale facility at $43,160; the 2008 appraisal valued it at $51,770.
EODC was awarded $125,362, which was meant to fund no more than 25 percent of the total
estimated facility costs of $501,450. Because EODC did not obtain loans for the Karnes City
and Stockdale facilities, OHS paid for 100 percent of the construction costs for both.

As noted, EODC did not provide us with construction costs. EODC had a ledger that included
accounts with various maintenance costs, and it asked us to leave the premises before we could
determine which costs were for the construction of the facilities and which were general
maintenance costs.

Claimed Expenditures That Were Not Reasonable or Supported by Source Documentation
for Construction, Maintenance, Repairs, and Fuel

Auditee Comments

EODC disagreed with our finding, stating that we ignored the source documentation EODC
provided to us for all expenditures for construction, maintenance, and fuel. EODC stated that a
large portion of these expenditures were for payments made to laborers at the Karnes City Head
Start construction project and for purchases of fuel for vehicles traveling to and from the
construction site to deliver materials and transport workers. Additionally, EODC stated that we
ignored the EODC director’s and staff’s “repeated corroboration” that the aggregate fuel usage
reflected not just the Head Start director’s purchases but purchases made for the Karnes City
construction project. In addition, EODC stated that it sent us sworn affidavits regarding
construction salaries.

Office of Inspector General Response

EODC provided us fuel receipts without any documentation indicating how the fuel was used.
The Head Start director purchased the fuel near the construction site as well as at other locations.
In an interview with the Head Start director, he told us that he was the only user of the card and
that he occasionally fueled a maintenance worker’s vehicle. He never indicated that the card was
used for multiple purchases of fuel for vehicles involved with the construction work.
Furthermore, there was no indication, in our analysis of EODC’s statements, of aggregate fuel
purchases made with his credit card or other fuel credit cards at any one time. EODC did not
address the fiscal/office manager’s fuel purchases.




                                                16
EODC’s documentation for cash payments to individuals for construction, maintenance, and
repairs was in the form of a small notebook kept by the Head Start director. EODC did not
provide any supporting documentation showing that the individuals had been paid, nor was there
supporting documentation for reimbursements made to the Head Start director for cash paid to
the workers. EODC did not address cash payments made to the fiscal/office manager for
maintenance reimbursements.

EODC provided us with sworn affidavits for cash payments to individuals for construction,
maintenance, and repairs with its response to our report. These affidavits were signed in 2012
for cash payments received in FY 2010. Because most of the affidavits did not reconcile to the
entries listed in the Head Start director’s notebook, we are unable to rely on these affidavits as
supporting documentation for the cash payments for construction, maintenance, and repairs.
Therefore, we are setting aside the $18,004 for further review by OHS.

Finally, if the fuel costs and day laborer costs were related to the construction of the Karnes City
facility, then they were further violations of the agreed-upon FAA for the construction of the
facility because they would represent Federal money used in addition to the $227,125 awarded.

Claimed Ineligible Salary Payment That Was Not Paid in Accordance With Federal
Requirements and Personnel Policies

Auditee Comments

EODC disagreed with our finding, stating that no employees were paid ineligible salaries and
that we believed that salary paid to full-year, full-day staff during June and August was holiday
pay. EODC stated that full-year, full-day classroom aides were permanent employees and that
they received benefits. In addition, EODC stated that we misunderstood the difference between
full-year, full-day classroom aides and disabilities aides, who were temporary and did not receive
benefits other than those EODC was required to provide.

Office of Inspector General Response

We did not misunderstand the salary paid to the full-year, full-day classroom aide. The
employee’s timesheet and other documentation identified the employee as a full-year, full-day
classroom aide and showed that the employee received holiday pay in December. EODC’s
personnel policies state that employees who hold the position “full-year, full-day” classroom
aide are not eligible for any benefits except those which EODC is required to provide and that
EODC would pay this type of employee only for time worked.

Claimed Inadequately Documented Salary Increase That Was Potentially Unreasonable

Auditee Comments

EODC disagreed with our finding, stating that the job description for the fiscal/office manager
was revised to include duties and responsibilities in addition to acting as the assistant Head Start
director when the director was unavailable. EODC said that the assistant director’s duties and



                                                 17
responsibilities included preparing agendas and materials for the Tri-County Board and Head
Start policy council meetings, acting as the contract person for the administrative office when the
Head Start director was not immediately available, securing lease agreements for in-kind space,
and obtaining estimates for minor repairs and maintenance projects. EODC also stated that the
additional responsibilities did not apply only when the director was unavailable, although the
increase in salary was partially justified by the fact that the director was consistently unavailable
to handle these day-to-day responsibilities because of travel between the Head Start centers.
Furthermore, EODC stated that it was an $11,796 annual increase, not a $25,769 increase.

Office of Inspector General Response

In previous correspondence, EODC officials stated that the salary schedule for the fiscal/office
manager position was adjusted in accordance with the prevailing wage for similar positions.
EODC did not provide a wage comparability study to help us determine how EODC used it to
determine the amount of the monthly salary increase. Although EODC stated that the increase
was based on additional duties and responsibilities, when we compared the fiscal/office
manager’s new 2009 job description with the 2007 job description, the only difference was to act
as assistant Head Start director/contact person for EODC when the Head Start director was
unavailable. The $25,769 increase is the total difference between her new salary, with two cost-
of-living increases, and her old salary with the two cost-of-living increases.

Did Not Pay Salaries and Payments for Unused Vacation in Accordance With Federal
Requirements and Personnel Policies

Prepaid Salaries

Auditee Comments

EODC disagreed with our finding, stating that EODC did not pay the Head Start director for his
last paycheck of FY 2010 over the 6-month period before it was earned and recorded as salary
expenses.

Office of Inspector General Response

An interview with an EODC official and documentation provided by EODC supports that EODC
prepaid the Head Start director his last paycheck of FY 2010 over the 6-month period before it
was earned and recorded the payments as salary expenses.

Prepaid Vacation Time

Auditee Comments

EODC disagreed with our finding, stating that no vacation time was ever sold before it was
earned. In addition, EODC stated that the Head Start director was paid his vacation for FY 2010
on December 1, 2010, which was the last of the EODC fiscal year, and that all his vacation days
had been accrued as of the day he was paid for them.



                                                 18
Office of Inspector General Response

In a previous interview, an EODC official stated that the Head Start director was paid for his FY
2010 unused vacation at the beginning of the fiscal year. In addition, documentation provided by
EODC showed that the Head Start director was paid for his unused vacation on December 4,
2009, not December 1, 2010.

EODC did not comment on our finding on employee advances.

Did Not Segregate Duties Related to Bank Reconciliations and Inventory Procedures and
Ensure That Only Authorized Personnel Had Access to the Accounting System

Auditee Comments

EODC disagreed with our finding, stating that segregation of duties was maintained as much as
possible with a small administrative staff. In addition, EODC stated that only authorized
personnel had access to the accounting system and that the Head Start director could not access
the accounting system.

Office of Inspector General Response

EODC’s policies and procedures indicated that checks were to be signed by the Head Start
director and a board member, which separated this duty from the fiscal/office manager’s
responsibility of reconciling the bank accounts. However, EODC was not able to provide
evidence that a board member had cosigned a check since September 2000, even though EODC
officials indicated that they were aware of the policy. The only individuals who had signed
checks were the Head Start director and the fiscal/office manager. In addition, EODC did not
segregate the duties of maintaining the inventory of assets and performing physical inventories.

Although EODC stated that the Head Start director did not have access to the server or
accounting modules, our interviews with office staff indicated that the Head Start director used
an administrative password to access the accounting system.

Did Not Enter Transactions Into the Accounting System in a Timely Manner

Auditee Comments

EODC disagreed with our finding, stating that entering transactions manually into a ledger and
then transferring the batch totals into EODC’s automated accounting system at the end of each
month was not a violation of its policies and procedures. In addition, EODC stated that it
appears that we were requiring EODC to enter individual transactions into the automated system
daily, which was not required by EODC’s policy or Federal regulation.




                                                19
Office of Inspector General Response

Although EODC recorded individual transactions in the manual journal, analyzing the financial
situation at EODC at any given time was difficult because EODC entered batch transactions into
the system monthly. We did not require EODC to enter transactions into the automated system
daily. However, all accounts need to be kept current for balances to be available on short notice.
In previous correspondence, the Head Start director indicated that EODC had obtained technical
assistance and had fully automated the accounting system.

Did Not Close Out the Automated Accounting System at the End of Each Year

Auditee Comments

EODC disagreed with our finding, stating that we were aware that EODC recorded transactions
and closed the accounts within 90 days of the end of the fiscal year, which was December 1, and
that the accounts were then made available to the independent auditor. In addition, EODC stated
that the accounts and records were all issued in compliance with the applicable regulations and in
a condition conducive to the independent auditor conducting a timely and accurate audit.

Office of Inspector General Response

It was EODC’s responsibility to ensure that all accounts were properly closed at the end of each
fiscal year. We saw several instances of accounts in the automated system that had large
accumulated balances that should have been closed out. Furthermore, in previous
correspondence, the Head Start director agreed with our finding and indicated that “the full
automation of the accounting system, which had now taken place, required that the automated
accounting system be closed out at the end of each fiscal year.”

Did Not Safeguard Unused Checks

Auditee Comments

EODC disagreed with our finding, stating that unused checks were kept in a locked filing
cabinet. EODC stated that the instance referred to in the audit report occurred when no one else
was in the office except a general office clerk and one of the OIG auditors. EODC said that the
general office clerk had stepped away from her desk for a moment, but had remained in the same
room, and left the blank checks face down on her desk. In addition, EODC stated that this was
an isolated incident and not indicative of daily activity at the EODC office.

Office of Inspector General Response

We disagree with EODC’s response. During our review, two OIG auditors conducted a physical
walkthrough of the EODC office. The accounting clerk had unused checks in a lockable cabinet,
but the cabinet was not locked at the time. The general office clerk had unused checks on her
desk. She indicated that the checks had been on her desk since the office move, which was a few




                                                20
months prior to our visit. She also stated that she needed to keep them locked up but had not
started doing so.

Did Not Have Written Policies That Adequately Addressed Conflicts of Interest and
Procurement of Consultants

Auditee Comments

EODC disagreed with our finding, stating that EODC’s policies addressed conflicts of interest.
EODC stated that its personnel policies list consultants as those persons with whom EODC
contracts to provide expertise in a particular area. EODC stated that the fact that consultants
were included in EODC’s “classification of employee” indicates that the policies allow the
employment of consultants as needed.

Office of Inspector General Response

We agree that EODC had a conflict of interest policy, which stated that employees and board
members may not accept gifts, money, gratuities, services, or anything of monetary value from
persons who receive benefits or services from EODC, perform services under contract to EODC,
or are otherwise in a position to benefit from EODC’s actions. However, EODC’s policies did
not address conflicts of interest on hiring family. EODC’s policies did not mention any
safeguards for keeping employees, board members, consultants, and others involved with grant-
supported activities from using their positions for purposes that are, or give the appearance of
being, motivated by a desire for private financial gain for others, such as those with whom they
have family, business, or other ties other than stating employees cannot serve on the board and
that persons related to employees are not to serve on the board or policy council.

We did not question EODC’s ability to contract consultants. EODC did not have policies in
place on the use and procurement of consultants. EODC should have policies and procedures in
place that describe the procedures for selecting the most qualified individual available,
determining the nature and extent of the services to be provided, and ensuring that the fees are
reasonable in accordance with the cost principles at 2 CFR part 230, Appendix B, section 37. In
previous correspondence with EODC, EODC officials stated that EODC did not have policies on
the use of consultants, and the policies we were provided did not discuss the use of consultants.

Did Not Maintain Accurate Property Record Cards on All Assets

Auditee Comments

EODC disagreed with our finding, stating that accurate property records were maintained on all
assets. EODC stated that the property records provided to us by the current independent auditor
were inaccurate because they were from the previous independent auditor. In addition, EODC
stated that the records maintained by EODC’s fiscal manager at the administrative office were
complete and accurate. EODC further stated that, during our audit, the fiscal manager and an
OIG auditor reconciled the property records to the list provided by the independent auditor and
that all items were accounted for.



                                               21
Office of Inspector General Response

The accuracy of the property records can be determined only by reconciling the property records
to the assets. We determined that EODC did not maintain property record cards on all assets.
Although we made attempts to contact the current independent auditor, she did not respond and
never provided us with any documentation. The fiscal/office manager provided all the
information we received related to the property records. An OIG auditor and the fiscal/office
manager attempted to reconcile the property records but could not. In previous correspondence,
the Head Start director acknowledged that “the agency has since reconciled the information with
its auditor, and all information agrees.”

Did Not Properly Record the Disposition of Assets

Auditee Comments

EODC disagreed with our finding, stating that the disposition of assets was recorded on the
inventory cards appropriately and that the proper entries were made to remove them from
EODC’s fixed assets as they became unrepairable or unusable or when they were traded in or
sold. In addition, EODC stated that recording the disposition of assets was an ongoing process
that was handled by the proper EODC administrative staff but that the records were not regularly
updated by EODC’s independent auditor. EODC stated that it was unaware that the independent
auditor’s list contained inaccurate information until we requested that EODC obtain a list of
fixed assets from the independent auditor.

In addition, EODC stated that it had pointed out the discrepancy to us and independently
documented the accuracy of all assets listed in EODC’s inventory. EODC said that, therefore,
our conclusion was incorrect because EODC properly recorded the disposition of assets. EODC
stated that it was the independent auditor and, by extension, the OIG that relied on the inaccurate
information.

Office of Inspector General Response

Regulations require that grantees maintain accurate records for equipment acquired with Federal
funds. EODC was responsible for the accuracy of the information provided to the independent
auditor.

Did Not Properly Identify Equipment

Auditee Comments

EODC disagreed with our finding, stating that each inventory listing had a serial number, or in
the case of a modular building, a description of the building and model number.




                                                22
Office of Inspector General Response

We disagree with EODC’s response. EODC should have tagged equipment purchased with
EODC or Head Start funds; however, EODC did not.

Did Not Properly Value Donated Space, Land, and Buildings in Claiming Non-Federal
Share

Auditee Comments

EODC disagreed with our finding, stating that it had attempted to obtain appraisals from
independent appraisers for donated space, land, and buildings but that it did not receive a
response from the appraisers or that their fees were too high. In addition, EODC stated that it
based the value of the donated space, land, and buildings on appraisals obtained from Atascosa,
Karnes, and Wilson counties.

Office of Inspector General Response

EODC should have had independent appraisals performed to ensure that EODC did not claim
more than the fair rental value of comparable space or fair market value in non-Federal share for
donated space, land, and buildings. The county’s appraised tax value may not reflect the fair
rental value or fair market value.

Did Not Adequately Document In-Kind Non-Federal Share for Volunteer Services and
Ensure That They Were Allowable

Auditee Comments

EODC disagreed with our finding, stating that administrative office personnel verified the value
of the time donated and that it was recorded by the fiscal manager and entered in the accounting
system monthly. EODC stated that personnel who document the non-Federal share at the center
level were trained in recognizing allowable in-kind contributions and that they were diligent in
examining the documentation.

Office of Inspector General Response

We disagree with EODC’s response. Volunteer timesheets did not adequately document the
types of activities performed, and EODC personnel did not ensure that non-Federal share for
volunteer services was allowable.

OFFICE OF HEAD START COMMENTS

In its written comments on our draft report, OHS concurred with all of our recommendations.
However, OHS stated that its concurrence with the recommendation to refund $372,081 in
unallowable costs was contingent on its determination that EODC failed to utilize $352,487 for




                                               23
construction as intended. OHS agreed that EODC should refund the remaining $19,594. OHS’s
comments are included in their entirety as Appendix B.




                                           24
APPENDIXES
                               Page 1 of 8


APPENDIX A: AUDITEE COMMENTS
Page 2 of 8
Page 3 of 8
Page 4 of 8
Page 5 of 8
Page 6 of 8
Page 7 of 8
Page 8 of 8
                                            Page 1 of 3


APPENDIX B: OFFICE OF HEAD START COMMENTS
Page 2 of 3
Page 3 of 3
